              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Work Order Estimate and Cost Issues for
Site Support Services at Los Alamos
National Laboratory




DOE/IG-0780                                      October 2007
WORK ORDER ESTIMATE AND COST ISSUES FOR SITE
SUPPORT SERVICES AT LOS ALAMOS NATIONAL
LABORATORY

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives          1

              Observations and Conclusions         2


              DETAILS OF FINDINGS

              Estimated Cost                       4

              Labor and Material Charges           5

              Internal Controls                    7

              Performance Evaluations              8

              Performance Measures and Award Fee   9


              RECOMMENDATIONS                      11


              MANAGEMENT COMMENTS                  11


              INSPECTOR COMMENTS                   12


              APPENDICES

              A. Scope and Methodology             13

              B. Management Comments               14
Overview

INTRODUCTION     The Department of Energy’s (DOE’s) Los Alamos National
AND OBJECTIVES   Laboratory (LANL) is one of the largest multidisciplinary science
                 institutions in the world. LANL enhances global security by
                 ensuring the safety and reliability of the U.S. nuclear weapons
                 stockpile; developing technical solutions to reduce the threat of
                 weapons of mass destruction; and solving problems related to
                 energy, environment, infrastructure, health, and national security.
                 LANL is managed for the Department’s National Nuclear Security
                 Administration by Los Alamos National Security, LLC, which
                 assumed full contract responsibilities on June 1, 2006.

                 Since February 2003, site support services at LANL, including
                 maintenance and repairs, have been provided by KSL Services Joint
                 Venture (KSL), which was formed by Kellogg Brown and Root Inc.,
                 Shaw Infrastructure Inc., and Los Alamos Technical Associates Inc.
                 KSL continues to provide these services under the new management
                 contract. The total estimated contract value over 5 years is
                 $785,457,000. This is a cost-plus-award-fee contract that provides an
                 incentive, in the form of an available award fee, to encourage and
                 reward improved performance and increased efficiency in the
                 achievement of the contract objectives. KSL’s performance is
                 evaluated semi-annually against performance objectives,
                 expectations, and associated weighting factors.

                 The contract states that KSL is to “achieve high levels of compliance
                 with industry standards and Laboratory and DOE requirements in the
                 performance of work.” It also requires KSL to exercise discipline and
                 rigor in corrective and preventive maintenance to ensure the scope of
                 work is clear, that pertinent project data is current and available, and
                 that appropriate levels of project controls and management are
                 provided for the delivery of work on schedule and within budget. In
                 addition, KSL is to provide cost estimating accuracy that is consistent
                 with acceptable, recognized industry standards.

                 Funds are obligated to the contract through work orders issued to
                 KSL. The work orders can have multiple tasks and become part of
                 a work package that is assembled for each work activity. The
                 work package is a compilation of all documents required to define
                 the work, identify and analyze hazards, develop and implement
                 controls, perform the work, and ensure performance. Work orders
                 are entered into LANL’s work control system, PassPort, which is
                 the institutional computerized maintenance management system
                 tool that is used to manage all support services subcontractor work.



Page 1                                       Work Order Estimate and Cost
                                             Issues for Site Support Services at
                                             Los Alamos National Laboratory
                   The Office of Inspector General received multiple complaints
                   alleging irregularities by KSL in cost estimating and charging of work
                   orders. It was alleged that actual costs frequently exceeded estimated
                   costs and that KSL often mischarged labor and materials. As a result,
                   we initiated an inspection to: (1) evaluate the extent to which KSL
                   costs exceeded work order estimates; and (2) determine whether labor
                   and materials were being inappropriately charged to work orders.

OBSERVATIONS AND   Our work substantiated the allegations. The review of 94,561
CONCLUSIONS        estimates of work order tasks from January 2005 through April 2007
                   revealed a systemic problem in that KSL actual costs frequently
                   exceeded estimates, often by significant amounts. This can
                   negatively impact the ability of KSL and LANL facility personnel to
                   effectively manage the cost of work performed and the allocation of
                   labor and material charges. Specifically, we found that:

                   •   Inconsistent with applicable performance standards, from
                       January 2005 through April 2007 actual cost exceeded
                       estimated cost for work order tasks by more than 20 percent in
                       71,025 out of 94,561 cases, or 75 percent of the time. In the
                       most extreme cases, estimates of $.01 were being input to
                       PassPort, apparently as “place holders.” This resulted in actual
                       costs that grossly exceeded estimates. In one such case, the
                       actual cost was $101,978.08.

                   In addition, we found problems with labor and material charges by
                   KSL. Many LANL officials told us of instances where KSL had
                   charged LANL work orders with labor and materials that were
                   questionable, inappropriate, excessive, or unsupported based on
                   their knowledge of the work performed. We found specific
                   examples to support these claims, such as:

                   •   Charges of $10,191 for more than twice the amount of
                       electrical wire needed for the work performed;

                   •   A work order for cement masons to repair concrete steps where
                       a nuclear safety engineer charged 35 hours after the work was
                       completed. The engineer’s labor charges of $4,900 were
                       almost 1½ times the total labor estimate of $3,444 and more
                       than tripled what had been, up to that time, a job cost of
                       $2,115.60; and,

                   •   Five work orders for fire alarm communication upgrades where
                       employees charged time even though they did not work on the
                       projects. These labor charges totaled approximately $9,780.



Page 2                                              Observations and Conclusions
         We also found internal control weaknesses associated with PassPort,
         which may have contributed to problems with work order charges
         and costs. For example, PassPort allowed unapproved charges to be
         applied against work orders without the knowledge of LANL facility
         personnel. These were in the form of “Other Costs” charges, which
         we were told were originally intended to allow KSL to recover
         certain unanticipated costs up to $20,000 per year. However, these
         “Other Costs” reached nearly $41 million in 2006 and were already
         over $14 million by the end of May 2007. Also, PassPort did not
         have adequate controls to help ensure the quality of an estimate prior
         to activation of a work order, e.g., an estimate could be $0.01.
         Further, financial limits or monetary ranges were not established in
         PassPort to control work order charges or alert LANL facility
         personnel to problems such as actual costs exceeding estimates.

         We observed that various issues concerning KSL estimates and work
         order costs had been raised previously during LANL reviews of KSL
         performance. These performance evaluations identified widespread
         and systemic failures in the fidelity of KSL’s financial management
         and controls, including labor charges. In addition, these evaluations
         found that cost performance was not always accurately portrayed.

         We also examined (1) the measurements used to assess KSL’s
         performance with respect to work order cost estimates and labor and
         material charges and (2) KSL’s award fee. We believe LANL could
         do more to define the standards against which KSL’s performance is
         being judged and the resultant impact performance will have on KSL’s
         award fee. We determined that, prior to the performance period
         October 1, 2006, to June 30, 2007, KSL’s cost estimating performance
         was combined with other performance elements. For the period
         beginning October 1, 2006, the quality of KSL’s estimates was made a
         separate performance element. We could not identify any performance
         measure specifically addressing the appropriateness, accuracy, and
         support for labor and materials charged to work orders. We reviewed
         the award fees that KSL has earned since April 2003 and determined
         that KSL has never earned the entire available award fee. For
         example, for the period October 1, 2005, through March 31, 2006,
         KSL received $2,815,886 out of an available pool of $3,027,834.
         However, it was unclear what direct impact KSL’s performance issues
         in the areas of estimating and work order charges have had on the
         award fee determinations.




Page 3                                    Observations and Conclusions
Details of Findings

ESTIMATED COST        Our review of 94,561 estimates of work order tasks from
                      January 2005 through April 2007 revealed a systemic problem
                      where actual costs frequently exceeded estimates, often by
                      significant amounts. This can negatively impact the ability of KSL
                      and LANL facility personnel to effectively manage the cost of
                      work performed and the allocation of labor and material charges.

                      KSL’s original Performance Evaluation Plan dated January 8, 2003,
                      under “Maintenance and Operations” and “Engineering and
                      Construction,” required KSL to “Provide estimating accuracy that is
                      consistent with acceptable, recognized industry standards for
                      productivity and deliver projects within 10% of the estimated cost.”
                      Since January 2003, the Performance Evaluation Plan has been
                      modified several times, with the performance measures for the
                      accuracy of estimates evolving from the standard of delivering projects
                      within 10 percent of the estimated cost to a less stringent standard of
                      completing work order tasks within 20 percent of the estimated cost.

                      For the projects we reviewed, we found that actual costs exceed the
                      estimates of work order tasks by more than 20 percent in 71,025
                      out of 94,561 cases, or 75 percent of the time. As noted, in some
                      cases, estimates of $.01 were being input to PassPort, apparently as
                      “place holders,” resulting in actual costs that grossly exceeded
                      estimates. For example, in one such case, the actual cost was
                      $101,978.08. For each year in our sample (2005, 2006, and
                      through April 2007), the percentages of actual costs exceeding
                      estimates remained fairly constant.

                      The Laboratory has 10 Facility Operations Directors (FODs) who
                      regularly interface with KSL during the performance of
                      maintenance and repair activities in their facilities. Eight of the 10
                      FODs expressed concerns to us about KSL estimates, making
                      statements such as: “estimates are overrun a fair amount of the
                      time” or “estimates are overrun consistently.”

                      In 2005, “Key Performance Indicators” were developed for cost
                      compliance associated with “Preventative Maintenance,” “Small
                      Jobs,” and “Projects.” A specific color coded system was used to
                      evaluate KSL’s performance, with “green” being used to show
                      passing, “yellow” to show need for improvement, and “red” to
                      show failure. For example, under “Preventative Maintenance”
                      tasks, KSL could achieve a “green” rating if the actual cost came
                      within +/- 20 percent of the estimate more than 40 percent of the
                      time, a “yellow” rating if the actual cost came within +/- 20
                      percent of the estimate from 30 through 40 percent of the time, and



Page 4                                                                Details of Findings
                          a “red” rating if the actual cost came within +/- 20 percent of the
                          estimate less than 30 percent of the time. Higher percentages were
                          established for “Small Jobs,” and “Projects.” When we asked
                          LANL officials why the standard for passing was set so low, we
                          were told that KSL estimates had been such a problem that “we
                          needed to start somewhere.” In fact, the evaluation comments
                          under both “Small Jobs” and “Projects” stated that LANL “May
                          re-evaluate scoring criteria to ‘raise the bar’ once systemic
                          improvements have been made to improve process and
                          estimating.” KSL scored “red” 90 percent of time for the
                          11-month period from November 2004 to September 2005 for
                          “Preventative Maintenance,” “Small Jobs,” and “Projects.” In
                          addition, KSL scored “red” 74 percent of the time when its
                          performance was measured at each of the nine Facility
                          Management Units in effect at that time.

                          Effective December 1, 2006, LANL issued a new administrative
                          procedure for KSL work performance that identifies new controls to
                          address estimates and cost overruns. The procedure states that for
                          all work valued at greater than $10,000, when tasks reach 85
                          percent of the cost estimate, KSL is to calculate the projected “final
                          cost.” If the projected cost is less than 120 percent of the estimate,
                          then work continues, but if the projected final cost exceeds 120
                          percent of the estimate, then KSL is to cease work and develop a
                          formal revised cost estimate. This revised estimate is to be
                          approved by the LANL maintenance manager, and the originator is
                          to be notified of the new costs. We were told, however, that as of
                          May 1, 2007, the new procedure had not been widely implemented.

LABOR AND MATERIAL We found problems with labor and material charges by KSL.
CHARGES            A number of LANL officials, including several FODs, told us of
                   cases where KSL had charged their work orders with labor and
                   materials that were questionable, inappropriate, excessive, or
                   unsupported based on their knowledge of the work performed. For
                   example, we were told of inappropriate charges that were the result
                   of timekeeping errors, work orders being charged by people who
                   did not work on them, unapproved overtime charges, and charges
                   to closed work orders. One LANL facility official indicated that
                   when KSL workers have no work to do, they are being subsidized,
                   and work order “padding” is common. We found specific
                   examples to support the above claims.

                          At one facility, a 2006 electrical upgrade work order with a final
                          PassPort cost of $140,151 had multiple problems. The total
                          PassPort estimate for this project was $133,574; however, there



Page 5                                                                   Details of Findings
         was no cost entered for materials and supplies, and only $9,282
         was entered for labor. The other $124,292 was shown as
         “miscellaneous.” Actual labor totaled $129,579 and actual
         materials totaled $10,157. At a point in time when the LANL
         project coordinator had only authorized KSL to spend up to
         $123,812, KSL’s actual charges rose to $154,170. The LANL
         project coordinator found the financial condition of the project to
         be “very disturbing” and performed an analysis of the $30,358 cost
         overrun. The project coordinator found that the amount of wire
         charged to the project was more than twice what was required to
         perform the work, with an original wire estimate of $4,529 and an
         actual wire charge of $10,191. The project coordinator also
         questioned labor costs, stating that “We had a report from the
         customer that the crafts were witnessed sleeping in trucks,” and
         that “laborers were consistently pulled from the project to support
         material transfers.” The project coordinator also stated that “I have
         $752.58 in labor charges after we pulled off the job . . . that I
         would like to have backed out of the work order.” The project
         coordinator stated that no further work was to have taken place,
         “yet these charges have mysteriously appeared for work not being
         performed.” Subsequently, the project coordinator questioned
         these costs, and KSL backed out $12,696.69 from the work order
         charges as “cost transfers” and “material mischarges.”

         In addition, we identified five work orders for fire alarm
         communication upgrades where a LANL facility official
         discovered inappropriate labor charges. For example, schedulers,
         electricians, and technical staff who did not work on the fire alarm
         upgrade charged time on these work orders. Inappropriate labor
         charges were determined to total approximately $9,780. A LANL
         facility official alerted KSL to these charges, and KSL backed
         them out.

         On a work order for patching cracks on a loading dock, we determined
         that a foreman charged three hours to this work order more than four
         months prior to the job being worked. On a work order for repairing
         steam and condensate leaks, we determined that a laborer charged six
         hours on a day when no one else was present, even though a laborer
         would not work alone. On a work order for cement masons to repair
         concrete steps, we determined a nuclear safety engineer charged
         35 hours after the work was completed. In this case, the engineer’s
         labor charges of $4,900 were almost 1½ times the total labor estimate
         of $3,444 and more than tripled what had been, up to that time, a job
         cost of $2,115.60. KSL management acknowledged that, in all cases,
         these charges were not appropriate. We were told that some of these



Page 6                                                  Details of Findings
                    charges could have been the result of timekeeping errors. We
                    requested the time sheets for the three individuals involved. KSL only
                    provided the timesheet for the foreman. We determined that the
                    inappropriate charges were due to a timekeeping error.

                    In a final example, a KSL employee charged 8 hours to a work
                    order that the employee only worked on for approximately 15
                    minutes. The KSL employee was tasked to re-glue carpet tiles that
                    started to bend up. The employee completed the task in about 15
                    minutes and then did nothing the rest of the morning from 8:15 am
                    until noon. The employee then attended a one-hour training class
                    between 12:45 pm and 1:45 pm and then did nothing between 2:00
                    pm and 4:00 pm. The employee told us that he was directed by
                    KSL management to charge to an incorrect work order. We asked
                    KSL management about this statement, and KSL management
                    denied it. The employee no longer works for KSL.

INTERNAL CONTROLS   We also found internal control weaknesses associated with
                    PassPort, which may have contributed to the problems with work
                    order charges and costs. For example, PassPort:

                    •   Allowed KSL to charge certain unapproved “Other Costs,”
                        such as materials that did not go through the LANL
                        procurement system for approval, without the knowledge of
                        LANL facility personnel. We were told that this feature was
                        incorporated into PassPort with the intent of allowing KSL to
                        recover certain minimal unanticipated costs. While the use of
                        this feature was not capped at any particular dollar amount, we
                        were told the original intent was to use this feature up to
                        $20,000 per year. However, these “Other Costs” reached
                        approximately $41 million in 2006 and were already over $14
                        million by the end of May 2007;

                    •   Did not have adequate controls to help ensure the quality of an
                        estimate prior to activation of a work order in the system, e.g.,
                        an estimate could be as low as $0.01 and there was no
                        requirement to estimate materials;

                    •   Allowed KSL to charge to work orders as soon as they were
                        created in the database even though the project may not have
                        been ready for the commencement of work activities;

                    •   Did not contain controls to limit charging to only those tasks
                        within a given work order that had been approved for work
                        activities;



Page 7                                                              Details of Findings
              •   Did not contain monetary ranges that could be used to notify
                  LANL facility personnel when KSL charges were approaching
                  the estimated cost;

              •   Did not place controls on KSL to prevent charges that
                  exceeded the estimated cost; and,

              •   Did not prevent charging to closed work orders.

              PassPort has the capacity to accept monetary ranges on all work
              orders to limit work order charges and to alert LANL when potential
              problems arise. However these capabilities had not been utilized.
              We were told by a LANL official that PassPort is a “wide open
              system without controls.” Since PassPort interfaces with LANL
              financial systems and results in the debiting of numerous LANL
              accounts, we believe stricter internal controls are essential to ensure
              the integrity of the work order process.

PERFORMANCE   We observed that various issues concerning KSL estimates and
EVALUATIONS   work order costs had been raised previously during LANL reviews of
              KSL performance. Performance evaluations dating back to 2003
              found widespread and systemic failures in the fidelity of KSL’s
              financial management and controls, including the perceived lack of
              control relative to labor charges. In addition, these evaluations found
              that cost performance was not always accurately portrayed. It was
              noted that KSL was “driving clients to authorize increases in costs in
              order to complete work that appeared to be driven by inefficiency or
              poor execution, creating distrust among LANL users.” The
              performance evaluations identified numerous work management
              problems, to include concerns that there was little evidence of
              accountability for: (1) accuracy of estimates on work orders;
              (2) overrunning estimates on work orders; or (3) work order charges.

              Specifically, a performance evaluation dated November 20, 2003,
              stated that KSL did not direct enough attention to getting quality
              work done on time and on cost target and that KSL had not
              demonstrated any significant improvement in maintenance cost or
              performance over the previous site support services contractor. In
              addition, this evaluation stated that KSL’s budget overrun was
              extremely disappointing.

              Performance evaluations dated May 13, 2004, and December 9,
              2004, stated that there was still considerable room for
              improvement in the estimating, scheduling, and statusing of work



Page 8                                                       Details of Findings
               in PassPort. These evaluations noted insufficient attention being
               paid by KSL to effectively accomplish work in the field and
               manage the accuracy of the data in PassPort. They noted that work
               orders were continuously being overrun with no prior notice to the
               customer and that the accuracy and timeliness of work order
               charges remained a concern.

               An August 5, 2005, performance evaluation stated that KSL had
               been slow to align department budgets and the Annual Management
               Plan with the approved budget and struggled in dealing with
               seemingly simple financial queries. This evaluation found that
               planning and general management and administrative costs charged
               to work orders had grown significantly and that KSL costs
               associated with oversight of outsourced services had been very high.

               Finally, a performance evaluation dated June 22, 2006, stated that
               KSL had launched key initiatives that had not improved
               performance in the field. The evaluation stated that KSL had not
               had a meaningful overhead cost report in months and that business
               volume by department was unknown. The evaluation stated that it
               was still unclear if KSL was performing within approved budget
               and that repeated requests to align cost reports with the approved
               budget had gone unanswered. The evaluation stated that LANL
               expected greater attention to estimating and a higher level of
               maturity 3½ years into a 5-year contract.

PERFORMANCE    We also examined (1) the measurements used to assess KSL’s
MEASURES AND   performance with respect to work order cost estimates and labor
AWARD FEE      and material charges and (2) KSL’s award fee. We believe LANL
               could do more to define the standards against which KSL’s
               performance is being judged and the resultant impact performance
               will have on KSL’s award fee. We examined the measurements
               used to assess KSL’s performance with respect to work order
               estimates and labor and material charges. As stated previously, KSL
               has a cost-plus-award-fee contract. The original Performance
               Evaluation Plan required that projects be delivered within 10 percent
               of the estimated cost. However, there have been several revisions to
               the Plan. Prior to the performance period of October 1, 2006,
               through June 30, 2007, KSL’s performance with respect to estimates
               was combined with other performance elements. For the period
               beginning October 1, 2006, the quality of KSL’s estimates was made
               a separate sub-element under the performance measure for “Value of
               Work Performed,” and the goal was that KSL’s estimates were
               expected to be within 20 percent of actual cost. We did not identify
               any specific performance measure addressing the appropriateness,



Page 9                                                       Details of Findings
          accuracy, and support for labor and materials charged to work
          orders.

          We reviewed the award fees that KSL has earned since April 2003
          and determined that KSL has never earned the entire available
          award fee. However, it was unclear what direct impact KSL’s
          performance issues in the areas of estimating and work order
          charges have had on the award fee determinations. For example,
          for the evaluation period of October 1, 2005, through March 31,
          2006, KSL received $2,815,886 out of an available pool of
          $3,027,834. The following scores and comments were recorded,
          but the direct impact on the award fee was not specified:

          •   Corrective Maintenance was required to be completed within
              20 percent of the estimate. While LANL scored KSL at 85.6
              percent for this element, it was noted in the evaluation that
              “KSL has requested that a significant number of work orders
              be exempt from this measure for a variety of reasons, some
              justified, others not so obvious.”

          •   Engineering and Construction projects established as a goal
              that no line items have estimated man-hours greater than 130
              percent of the industry standard unit man-hour productivity
              factor. While LANL scored KSL at 80 percent for “Estimating
              Performance,” it was noted that estimating performance missed
              the mark in several areas, to include failure to quantify units
              while simply allocating man-hours based on the estimator’s
              experience, adding time (in some cases x 4) to the industry
              standard productivity factors to account for the inability to
              perform to industry standard factors, and the addition of field
              supervision that should have already been included in industry
              productivity standards. Of particular note, the evaluation stated
              that “If similar discrepancies arise in future evaluations, KSL
              will receive a score of zero for the estimating measure and the
              available fee . . . will be limited to the fee assigned to the
              individual measures times the percentage of estimates that pass
              review.”




Page 10                                                  Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Los Alamos Site Office, ensures
                  that LANL provides immediate attention to and continued
                  oversight of KSL work package estimating and labor charging
                  activities and ensures that:

                  1. All KSL estimates are fair and defensible, costs are identified
                     for materials when materials are required for the performance
                     of the work, and contractual requirements for accuracy are met.

                  2. Only actual labor and material costs are charged to a work order
                     and that those charges are made to the correct work order.

                  In addition, we recommend that the Manager, Los Alamos Site
                  Office, directs LANL to do an immediate review of:

                  3. “Other Costs” to determine why these costs have exceeded the
                     intent of this PassPort feature and to ensure that only
                     appropriate and approved “Other Costs” have been charged.

                  4. The structure of PassPort and implement stricter internal
                     controls to ensure the integrity of the work order process.

                  We also recommend that the Manager, Los Alamos Site Office,
                  directs LANL to:

                  5. Continue to have a separate performance measure for the quality of
                     KSL’s work order cost estimates and establish a performance
                     measure for the appropriateness, accuracy, and support for labor
                     and materials charged to work orders. Further, there should be a
                     clear link between each performance measure and KSL’s award fee.

                  Further, we were advised that LANL is currently conducting a “cost
                  incurred” audit of KSL. Given the nature of the issues in our report,
                  we believe a “floor” audit of KSL would also be beneficial. Therefore,
                  we recommend that the Manager, Los Alamos Site Office, direct
                  LANL to:

                  6. Conduct a floor audit of KSL.

MANAGEMENT        In comments on a draft of this report, which are included in their
COMMENTS          entirety at Appendix B, the National Nuclear Security
                  Administration (NNSA) stated that it generally agreed with the
                  report. NNSA stated that many of the issues noted by the Office of
                  Inspector General (OIG) were corrected prior to the OIG’s field



Page 11                                                       Recommendations
                                                          Management Comments
            work. NNSA also stated that actions being taken by the
            Laboratory because of its own internal audit are the genesis of
            corrective actions, along with validation of issues raised by the
            OIG. In addition, NNSA stated that numerous problems, both
            related and unrelated to issues noted in the report, prompted the
            Laboratory to remove work control functions (including most job
            estimating) from KSL’s subcontract in late April of this year.

            Regarding the report recommendations, NNSA stated that it will
            prepare a Management Decision to formalize corrective actions
            related to this report and ensure that all issues are being
            appropriately addressed.

INSPECTOR   While noting NNSA’s general agreement with our report, we
COMMENTS    disagree with NNSA’s assertion that many of the issues we
            identified were corrected prior to our field work. Although LANL
            had initiated some corrective actions, significant problems
            continued to exist at the time of our field work. Regarding
            NNSA’s statement that LANL removed most job estimating from
            KSL’s subcontract in April 2007, it is our understanding that KSL
            still performs estimating for corrective maintenance and small
            projects, which, based upon our review of past work order tasks,
            comprise a significant portion of KSL’s workload.

            Upon receipt of NNSA’s Management Decision, we will assess
            whether the identified corrective actions are responsive to our
            report recommendations.




Page 12                                                Inspector Comments
Appendix A

SCOPE AND     We conducted the majority of our field work from July 2006
METHODOLOGY   through April 2007. Our review included interviews with DOE
              officials from the Los Alamos Site Office, officials from LANL,
              and subcontractor employees. We also reviewed applicable
              policies and procedures regarding integrated work management
              and cost estimation at LANL, as well as work order estimates for
              the period January 2005 through April 2007.

              Pursuant to the “Government Performance and Results Act of
              1993,” we reviewed LANL’s performance measurement processes
              as they relate to work order estimates and cost charges.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 13                                              Scope and Methodology
Appendix B




Page 14      Management Comments
Appendix B (continued)




Page 15                  Management Comments
                                                                    IG Report No. DOE/IG-0780

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
